              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                           September 12, 2014
Memorandum

To:            Douglas Glenn
               Director, Office of Financial Management

Attention:     Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          JeffCarlson     ~~
               Director, Ene~.fid'its Unit
               Office of Inspector General

Subject:       Verification Review of Recommendations for the Evaluation "Bureau of Land
               Management's Oil and Gas Lease Auction Process" (CR-EV-BLM-0002-2009)
               Report No. CR-VS-BLM-0042-2014

       The Office oflnspector General (OIG) has completed a verification review of the five
recommendations presented in the evaluation report "Bureau of Land Management's Oil and Gas
Lease Auction Process" (CR-EV-BLM-0002-2009) issued August 26, 2009.

        The objective of this verification review was to determine whether the recommendations
were implemented by the Bureau of Land Management (BLM) as reported to the Office of
Financial Management (PFM), Office of Policy, Management and Budget. Our review was
prompted by a highly publicized incident in which an individual, who in an act of environmental
protest, disrupted a BLM lease auction by bidding for parcels without the intent or ability to pay
for or develop the leases.

        PFM reported to us that each of the five recommendations in the report had been
addressed. We concur that Recommendations 1, 2, 4, and 5 are resolved and implemented. We
do not concur, however, that BLM resolved and implemented Recommendation 3.

        Recommendation 3: If BLM does not implement the policy to make the entire bonus bid
        a debt to the U.S., BLM should increase the amount due on the day of sale from $2 per
        acre to a specified percentage (e.g. 20 percent) of the bonus bid to be determined by
        BLM.

        BLM did not implement the policy to make the entire bonus bid a debt to the U.S.
Government nor did BLM increase the amount due on the day of sale from $2 per acre to a
specified percentage of the bonus bid to be determined by BLM. It was BLM' s opinion that it
was not necessary to promulgate a new regulation to implement Recommendation 3 of the OIG



                         Office of Audits, Inspections, and Evaluations   I Lakewood, CO
report. Although the Solicitor determined that the incident was isolated and the fraudulent bidder
was successfully prosecuted, we believe that BLM did not take the necessary steps to mitigate
the risk of this type of incident reoccurring.

        We request that PFM provide a written response to this report by October 14, 2014
indicating whether it reinstated Recommendation 3. If applicable, the response should provide
PFM’s reasons for not reinstating the recommendation. If you have any questions concerning this
memorandum, please contact me at 303-236-9243.


cc:    Neil Kornze, Director, Bureau of Land Management
       LaVanna Stevenson, Audit Liaison Officer, Bureau of Land Management
       Patrick McHugh, Audit Liaison Officer, Office of Financial Management




                                                2
